IN THE SUPREME COURT OF THE UNITED STATES
No. 19A

FlonoNcn BixuNrr

AND

MIcHAIL D. BIxuNu, SR.,
Applicants,

v.
UNrrnn SrarBs

otr'

AuonICA,
Respondent

CERTIFICATE OF SERVICE
Pursuant to Rule 29.5 of the Rules of this Court, I certify that all parties
required to be served have been served. On December 6, 2019,I caused a copy of
an Application for an Extension of Time Within Which To File Petition for a Writ

of Certiorari to the United States Court of Appeals for the District of Columbia

Circuit to be served by first-class mail, postage prepaid; through the Court's
electronic filing system on those registered with the system; and by electroni.c mail
(as designated) on the following:

Noel J. Francisco
(supremectbriefs@usdoj. gov)
Solicitor General
Office of the Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Room 5614
Washington, D.C. 20530-0001
(202) 574-2217
Counsel of Record for Responden't

Andrew tr. Goldsmith
Counsel of Record for Applicants

